No. 19-410

3fn tf)t
Supreme Court of tfje Mmteb States

IN RE RICHARD J. FIELDS,
Petitioner.

On Petition for an Extraordinary Writ of Mandamus
to the New York Court of Appeals

PETITION FOR REHEARING

Richard J. Fields
Petitioner Pro Se
2830 Pitkin Avenue
Brooklyn, NY 11208
(718) 235-0900

January 2,2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

1

TABLE OF AUTHORITIES
PAGE
TABLE OF AUTHORITIES....

11

PETITION FOR REHEARING

1

CONCLUSION........ .................

11

RULE 44 CERTIFICATE........

13

11

TABLE OF AUTHORITIES—Continued
Page
CASES
Marshall v. Marshall,
547 U.S. 293 (2006)

3

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. XIV..................

1,8

1

PETITION FOR REHEARING
I am requesting a rehearing for case No 19-410,
Richard J. Fields vs. Diana Palmeri because the will
they probated was made by perjury and forgery. They
have no evidence to prove that they deserved Sydney
Fields’ nine million dollar estate.
I.

Judge Mella Seriously Abused Discretion

Judge Rita Mella ignored the testator Sydney
Fields’ statement that he could not read. The statement
was recorded by tapes provided by Vanguard and
was supported by a doctor’s note. Just because the
will drafter Edward Curtin and his wife mentioned a
magnifying glass Judge Mella assumed that Sydney
could read. She considered the Will execution was
duly even though Curtin admitted that he never read
the will aloud in front of the witnesses. The Due
Process under the 14th Amendment was seriously
violated.
1.

She ignored a forged initial which resulted
in switching the page with all the deposition
terms. She simply said: “there is no require­
ment that a testator initial the pages of a
will for it to be valid.” (Ann. 18a line 1-line 3)

2.

She supported the Palmeris because the
Fields family did not contact each other for
many years. She disregarded the exception
our law shows to the mental ill which
affected this case and abuses discretion.

2

n.

Response from Attorney General of NYS, from
All the Courts and from the Respondents

Without the testator’s explanation the 2014 will
cut Sydney’s 3.5 million dollar donation to $1,500.
Five relatives of Sydney’s third wife (she predeceased
him) took over all Sydney’s nine million dollar estate
and left the Fields family nothing.
A letter from the Attorney General of NYS,
signed by Eric T. Schneiderman said that: Sydney H.
Fields at the end “was forged and written by Diana
Palmeri or by some other person or persons acting
independently or in concert or in private with
Diana.” “A trial by jury of the issues raised by these
objections is hereby demanded.” (App.22a line 5) Our
discovery shows the will was falsified by a forged
initial on the page with the deposition terms. They
made a forged document to support the terms and
committed perjury to support an unduly will
execution.
They told this court that the case was over since
we did not appeal the Surrogate’s Court’s Decree of
Probate before the deadline. The fact is that they
sent the decree to our formal lawyer and we knew it
after one month. We did make our appeals in time
and had a statement from The New York Court of
Appeals “Such (appellate) order does not finally
determine the proceeding within the meaning of the
Constitution.” The New York State Court admitted
that their decision “does not finally determine the
proceeding within the meaning of the constitution.”
Now the Supreme Court of the United States simply
notified us that our petition is denied.

3

In the Brief of October 28, 2019 Respondent’s
lawyers hardly discussed arguments in our brief
because they dared not and did not want to support
perjury and forgery for a legal fee. Besides announc­
ing the case was already over they talked about
“probate exception” (Court’s jurisdiction in 1946). We
found a case (Marshall v. Marshall, 547 U.S. 293) which
made this Court state in 2006 that probate exception
seemed to have arisen from a “misty understanding
of England legal history”.
Respondents ignored my mental status and con­
tinued using my father’s words in 2006 to attack me.
They successfully let this court deny my petition on the
date of Dec 9 when I receiving psychiatric treatment
in Brookdale Hospital.
I feel that I merely talked to the wall all these
days. I heard no voice from the law but perjury from
the Respondents and the simple rejections from the
clerks in the courtrooms. Still I ask for a rehearing
here. A nine million dollar probated estate maybe is
too insignificant to get your attention but it is big if a
case relates to the reputation of our legal system. My
brief to this court will be, along with your decision,
published as a book by a company from London.
III. Psychiatric Illness Made My Family Lose

Contact
Without valid evidences judges believed Palmeri
deserved Sydney’ money simply because the Fields
family did not see each other for twenty years. Under­
standing Sydney’s family background thus is crucial.
Sydney Fields was born in 1918 one day after his
father died. Flu then killed 26 million people in the

4
world at that time. Doctor Groginsky risked his life
to help this family and he signed both the death and
birth certificates. Growing up with his grandfather
Sydney knew how close the relationship between the
grandfather and the grandchildren could be. Knowing
the sadness of not having a father, Sydney worked
very hard to bring his family to the middle class.
Unfortunately his first two wives were mentally ill
and messed up the family relationship. As a guardian
he sold the first wife’s house and kept the money. He
made the second wife surrender all her salary within
an 8 year marriage* and paid no alimony when he
divorced her. The fund he collected from his ex-wives
actually created part of his over 9 million dollars
assets which should go back to the children of his exwives. The pattern in which Sydney treated his women
determined that he wouldn’t give all his assets to the
relatives of Teresa particularly when his legal obli­
gation to her was ended due to her death.
In 1991 Sydney sent me to a mental hospital when
I expected he sent me to law school. Since then I
broke up with him. I wrote letters and sent pictures,
holding guns, to harass my father and my halfbrother, Kenneth. Noticing my mental problem my
father refused Kenneth’s demand of ending the relation­
ship with me. He did not want to abandon any of his
children and end up he lost all of them, the New Jersey
court deprived his right to visit Kenneth’s children.
(App.l72a-188a) Palmeri is able to take all Sydney’s
asset is basing on such a sad situation.
IV. Sydney Made Wills in Three Different Times
After losing contact with his family members
Sydney made wills in three different times.

5

In 1997, one year after receiving my harassing
pictures, Sydney drafted a will. He let Teresa handle
his funds but after Teresa died he left 65% of his
assets to his grandchildren and 35% to the charity.
He gave me something but nothing to Kenneth who
forced my father to end the relationship with me. The
fund for Palmeri’s family was less than $70,000.
In 2004 Sydney altered his will but it looked like
Teresa was the one who contacted Curtin (Starting
from the 2006 will Curtin mentioned the testator is a
woman not a man.) As a wife Teresa did not want to
eventually give all the funds back to the Fields family
and the charity as the 1997 will said. Being unduly
influenced and in duress by having his eyes blind day
after day, Sydney had no choice and let Teresa actually
own 50% of his assets. However that money must
only be forwarded to Victor not to any other Palmeris.
In the 2006 will he had a harsh statement stopping
anybody from touching his money because he noticed
the ambitions of someone behind Teresa (App.l42a
line 4-whole paragraph) He gave nothing to the other
Palmeris, only $5,000 to each of their children. He
put Lewis Fields as his direct beneficiary and the
donation fund was maintained at 50%.
After Teresa died Sydney did request a will alter­
ing. A few days before signing the will Sydney planned
to close all the joint accounts he had with Teresa. To
prevent Diana from knowing this he insisted Van­
guard’s broker travel from Philadelphia to help him
fill out the forms (App.56a) After the will was signed
and a half year before he died Sydney insisted limit­
ing Diana’s POA to only one account. (App.61a) He
preferred to close all his accounts and finally got an

6

exemption from Vanguard. Actions he took did not
agree with what the probated will said, he gave all
his money to the Palmeris.
Curtin told us that the 2006 will and 2014 will
had the same pattern and they do not. The 2014 will
divided 100% of Sydney’s estate with the five Palmeris,
left the charity and Lewis Fields nothing. The 2006
will inherit only 50% and that money must be
forwarded to only Victor. 50% goes to charity.
V.

The 2014 Will Was Back Up By Curtin’s

Perjury
In the whole process all we heard were Edward
Curtin attesting. He made three major affirmations
to support the 2014 will. Being questioned he later
dismissed his affidavit but those affirmations were
still quoted in all their motions.
Curtin claimed that “in the previous, superseded
will, Sydney had left the bulk of his estate to his wife
Teresa Fields, but when she died in Sen of 2014 Mr.
Fields . . . provided for his residuary estate to be
distributed amongst members of his deceased wife’s
family, whom he had come to embrace as his own
family. (App.160 a line 3-line 10)
Curtin used the word “bulk of’ to change Palmeri’s
share from 50% to 100% of Sydney’s estate and had
not reference for what he said.
The relationship of Sydney and Palmeri was also
perjury. He had no proof about such a close relation­
ship. In his deposition Curtin admitted that the saving
was only his opinion. (App.81a line 5-line 10) That

7

position made Judge Mella release the will because
he made it as attesting.
Respondent did not have even a piece of paper or
tape to prove their close relationship with Sydney.
They found witnesses attesting that Sydney loves the
Palmeris more than he loves his family. However,
none of them could explain why Sydney loved the
Palmeris so much, gave his wife 50% but gave these
nieces 100% of his assets.
According to Diana Palmeri’s deposition, most of
the beneficiaries lived far away from NYC and Sydney
hardly saw them in the last two decades. For forty
years Sydney never traveled with any of them and
never stayed over-night in their NJ home. (App.70a71a) Sydneys harsh statements in the 2006 will clearly
reflected his relationship with those people (App.l42a
line 5) without a valid proof, Edward Curtin’s attesting
about Sydney giving all his estate to Palmeri was
perjury.
VI. The Will Execution Was Unduly for a Blind

Man
Curtin’s credibility is questionable. It can tell from
his beginning affirmation which hid Sydney’s vision
problem (App.l59a 2.) Judge Mella accepted all Curtin’s
attesting because he acted as the will drafter and a
nonbeneficiary. (App.l3a line 9-15)
Curtin is a retired lawyer, living in a rental apart­
ment with only two bedrooms. He has no office and no
secretary but had a witness, his wife to mentioned a
magnifying glass. He also claimed that Sydney used
that magnifying glass to read the Will (App.76a-79a)
Such a claim was not supported by the other witness,

8

their neighbor. “Sydney could read” obviously is a
perjury because a few days before signing the will
Sydney clearly announced that he could not read typed
words even with a magnifying glass. His statement was
recorded on an audiotape by Vanguard (App.56a) and
was backed up by a doctor’s note. (App.43a line 2)
Judge Mella assumed Sydney could read just
because the magnifying glass was mentioned. (App.l6a
line 6) She considered the Will executed was duly
even though Curtin admitted that he never read the
will aloud in front of the witnesses. (App.79a-80a,
85a-86a) The 14th Amendment related to due process
was violated and Mella abused discretion obviously.
VII. The 2014 Will Relies on Forged Documents
No one knew what was in the will except Curtin.
All the deposition terms were put on the same page
and switching that page can falsify the whole will.
Our handwriting expert has confirmed that the initial
in that page was forged. However, the respondent’s
lawyers convinced the judge to ignore the forger
because “There is no requirement that a testator initial
the pages of a will for it to be valid.” (App.l8a line 1line 3)
The only reference document they presented is
a piece of paper. Judge Mella recognized it simply by
mentioning it: “Here, the attorney-drafter testified that
the dispositive terms of a proposed instrument were
provided to him by decedent himself and confirmed
those dispositive provisions of the will orally to dece­
dent shortly before execution.” (App.l6a line 17-line 22).
That paper had only numbers and names. It had
no date, no stamp, no signature and mentioned nothing

9

about will altering. Moreover, that note was written
with a strong stroke in a straight line identically. It
did not look like it was written by a 96 years old
blind man who can hardly control his pen. It looked
like it was printed and pasted with a computer. (App.
122a)
The most of all such a “backup material” needed
to be supported by three Curtin’s affirmations: 1.
That instrument was handed it to him by Sydney orally
and only by Sydney. 2. The number meant the distri­
butions of Sydney’s assets. (App.87a) 3. Those numbers
are off from the distributions in the will because
Sydney told him to update them on the phone. Again
Curtin had no video or audiotape to support what he
said. (App.83a) A will all relying on Curtin’s attesting
were accepted by Judges in our courtrooms.
VIII. Who Told Curtin Ana’s Address

in the

Will

in Ecuador

Another perjury Curtin committed about an aide.
He attested that it was an aide who took Sydney to
the law office. However, he and his witnesses could
not describe anything about the aide (age, skin color
and so). Actually as a beneficiary, Diana admitted that
the first time she met Curtin was in the Will signing.
She then changed it to Will reading and Curtin said
there was no Will reading at all.
Curtin make the Judge believe that “The benefi­
ciaries had no direct involvement in the preparation
of the execution of the will”. (App. 15a line l-line3,
16a linell-14)
A question then raising up here: The note that
Sydney handed in to Curtin with only names and

10

numbers on it. Who told Curtin about beneficiary Ana
Garzon Yepez’s address in Ecuador: Francisco Oliva
Oe3-73 v Cap. Edmundo Chiriboga Case # 46. Quito
Ecuador. How could Sydney remember such a
complicated address and repeat that accurately to
Curtin on the phone?
IX. No Reference About Sydney’s Words in 2014
All the crucial things related to this will were
based on Curtin’s affirmations. However, Curtin was
not trusted by Sydney. Vanguard’s telephone conversa­
tion showing Sydney looked panicky when the broker
asked him to get help from his lawyer to fill out the
form related to the fund transfers. (App.59a) He never
let Curtin know how much assets were involved in
his will.
In their briefs of October 28, 2019 they did not
discuss arguments we present and simply attacked
me with words my father said in 2006. In Curtin’s
deposition he admitted that there was “no provision
referenced” He just said those are “at Sydney’s express
direction.” (App.89a) and he did not make a tape
recording of what my father said in 2014.

11

CONCLUSION
The 2014 will solely relied on Curtin’s attesting
and Curtin’s reputation is questionable. He hid
Sydney’s vision problem in the very beginning and he
still refused to admit that I harassed my father due
to my being mentally ill.
•

They committed perjury by saying that Sydney
could read with a magnifying glass and insisted
that the will execution was duly even though
Curtin did not real the will aloud in front of
the witnesses.

•

They used a forge initial to switch the page with
the deposition terms and falsify the whole will.
They said a will does not need the testator’s
initials to make it valid.

•

They made up an instrument to support the
will. That instrument look like written by a 96
year old blind man. The instrument itself needs
Curtin’s attesting to back it up.

•

It is impossible that Curtin knew Ana’s address
without her involvement and he told us no
beneficiary was involved in the 2014 will
altering.

•

They dismissed Sydney’s autobiography and
audiotape provided by Vanguard with the tes­
tator’s voice, New Jersey court papers, and
doctor’s note. They even dismissed the affidavit
and deposition they made. (Their App.la-5a)
Dismissing the original evidence means they

12

are criminals who tell lies to steal nine million
dollars.
Blood is thicker than water particularly for the
background that my father had. I was in and out of
psychiatric hospitals all these years and lost shelter
three times. I didn’t contact my father because I did
not want to bother him.
If you don’t think our law should exempt psycho­
tic behaviors related to probate you should at least
make the respondent prove how Sydney loves the
Palmeris and how he hated his children due to things
that happened 20 years ago. We need to what Sydney
actually said in 2014 just like the tape Vanguard
provided to us. We don’t want Curtin’s affirmations
that might bring him a few millions dollar bribe.
I am living on SSI now and the Government will
at least spend two millions dollars on me in the next
30 years. It makes no sense that you let criminals
step on a disabled person in the courtrooms, steal his
father’s money, steal the college money, and steal the
government’s money just because Edward Curtin
said so and Judge Rita Mella believed so.
Respectfully submitted,
Richard J. Fields
Petitioner Pro Se
2830 Pitkin Avenue
Brooklyn, NY 11208
(718) 235-0900
January 2,2020

13

RULE 44 CERTIFICATE
I, Richard Fields, petitioner pro se, pursuant to
28 U.S.C. § 1746, declare under penalty of perjury that
the following is true and correct:
1. This petition for rehearing is presented in
good faith and not for delay.
2. The grounds of this petition are limited to
intervening circumstances of a substantial or controlling
effect or to other substantial grounds not previously
presented.

Richard J. Fields

Executed on December 27, 2019

